          Review of the Railroad Retirement Board’s Progress in Meeting

              Selected Federal Financial Management Requirements

                         Report No. 03-04, March 18, 2003 



                                     INTRODUCTION


This report presents the results of the Office of Inspector General’s (OIG) review of the
Railroad Retirement Board’s (RRB) progress in meeting selected Federal financial
management requirements.

Background

The RRB is an independent agency in the executive branch of the Federal government.
The RRB administers retirement/survivor and unemployment/sickness insurance benefit
programs for railroad workers and their families under the Railroad Retirement Act
(RRA) and the Railroad Unemployment Insurance Act (RUIA). These programs provide
income protection during old age and in the event of disability, death or temporary
unemployment and sickness. The RRB paid approximately $8.8 billion in benefits
during fiscal year (FY) 2002.

The President’s Management Agenda, Fiscal Year 2002 includes a government-wide
initiative to ensure that Federal financial systems produce accurate and timely
information to support operating, budget, and policy decisions. The focus of the
initiative is to improve the timeliness, usefulness and reliability of financial reports of
Federal agencies, their components and the government as a whole.

Office of Management and Budget (OMB) Circular A-127 prescribes policies and
standards for executive departments and agencies to follow in developing, operating,
evaluating, and reporting on financial management systems.
The Joint Financial Management Improvement Program (JFMIP) is a joint undertaking
of the U.S. Department of the Treasury, the General Accounting Office, OMB, and the
Office of Personnel Management working in cooperation with each other, with other
agencies, and with the private sector, to improve financial management practices in the
Federal government. The JFMIP promotes strategies and sponsors projects to improve
financial management across the Federal government.
The Bureau of Fiscal Operations, under the direction of the agency’s Chief Financial
Officer, has primary responsibility for financial management and reporting. These
activities are supported by automated and non-automated systems including a
mainframe general ledger, integrated budgeting and purchasing subsystems, and
multiple non-integrated feeder systems. Non-integrated feeder systems include those
supporting receivables and fixed asset management, benefit payment operations, cost
accounting and personnel/payroll activity.
This study addresses areas of management performance that support the RRB’s
strategic goal of safeguarding agency trust funds through prudent stewardship.
Objective, Scope and Methodology

The objective of this review was to assess the RRB’s progress in meeting the following
selected financial management requirements of OMB Circular A-127 during FY 2002:

        •   Agency-wide Financial Information Classification Structure;
        •   Integrated Financial Management Systems;
        •   Application of the U.S. Standard General Ledger at the transaction level;
        •   Federal Accounting Standards;
        •   Financial Reporting;
        •   Budget Reporting; and
        •   Functional Requirements.

To accomplish our objective, we:

    1. interviewed responsible management and staff;
    2. identified applicable JFMIP system requirements;
    3. 	 analyzed the flow of financial data between the general ledger and the major
         integrated and non-integrated feeder systems;
    4. 	 obtained self-assessments of JFMIP compliance for the personnel/payroll and
         cost accounting systems;
    5. 	 evaluated the data elements and transaction processing definitions in the core
         financial system and its integrated subsystems with the requirements of the U.S.
         Standard General Ledger;
    6. identified controls and tested data-entry for selected non-integrated subsystems;
    7. 	 reviewed opinions and reports issued pursuant to annual audits of the RRB’s
         financial statements; and
    8. 	 reviewed prior audit reports with findings related to financial management and
         financial management systems.

OMB Circular A-127 also requires that Federal agencies ensure security over financial
management information systems in accordance with OMB Circular A-130. The OIG
has previously assessed internal control weaknesses related to security at the level of
material weakness.1 Agency management has concurred with the OIG’s overall
findings and is in the process of taking corrective action. Accordingly, we have
excluded information security from the scope of this evaluation.

This project did not include a direct assessment of compliance with requirements for
training and user support, system maintenance or internal controls.

1
 OIG Audit Reports #02-04, “Review of Information Security at the RRB,” February 5, 2002 and #02-12,
“Fiscal Year 2002 Evaluation of Information Security at the Railroad Retirement Board,” August 27, 2002.
Our evaluation was conducted in accordance with generally accepted government
auditing standards as applicable to the audit objectives. Fieldwork was conducted at
RRB headquarters during May through August 2002 and January 2003, to coordinate
with the OIG’s annual audit of agency financial statements.


                                RESULTS OF REVIEW 


The RRB has met the major financial management system requirements of OMB
Bulletin A-127. The agency’s financial management systems:

      •	 support preparation of auditable financial statements in accordance with
         applicable accounting standards;
      •   implement the U.S. Standard General Ledger at the transaction level;
      •   integrate budgetary and proprietary accounting; and
      •   support the preparation and execution of the agency’s budget.

Although the RRB has been able to prepare auditable financial statements, the agency
needs to adequately ensure that it will be able to meet OMB’s recently accelerated
timetable for financial reporting in future years. We also noted that the agency had not
fully assessed its financial management systems for compliance with JFMIP
requirements.


Financial Statement Reporting

The RRB needs to adequately ensure that it will be able to meet OMB’s timetable for
accelerated financial reporting in future years.

The RRB is not subject to the financial reporting requirements of the Chief Financial
Officers (CFO) Act. However, the agency has emulated CFO Act agencies in publishing
audited financial statements in accordance with the requirements and timetables
established for such agencies. The RRB has published audited financial statements for
each fiscal year beginning with FY 1993.

Public Law Number 107-289, signed into law on November 7, 2002, extended the
requirement for audited financial statements to the RRB. On December 6, 2002, the
Director of OMB advised affected agencies, including the RRB, that they would be
subject to the same accelerated reporting schedules established for CFO Act agencies.
Beginning with the fiscal year ending September 30, 2004, the RRB will be required to
submit performance and accountability reports to OMB and the Congress by November
15, 2004.

The Bureau of Fiscal Operations prepares the agency’s financial statements by
manually entering data into a complex series of inter-related spreadsheets. Although
the configuration of manual and automated systems supports the preparation of
auditable financial statements, the process is slow and labor intensive. The lack of an
automated process for financial statement preparation will severely limit the ability of the
RRB to accelerate the financial statement audit process in the future.

In August 2002, the Chief Financial Officer advised the OIG that the Bureau of Fiscal
Operations intended to further automate the preparation of the RRB’s financial
statements and pursue additional staffing as necessary. A project team convened in
February 2003 to assess the agency’s options with a tentative project completion date
of June 30, 2003.

Recommendation #1

We recommend that the Bureau of Fiscal Operations develop and implement a strategy
to accelerate the financial reporting process.

Management’s Response

Management agrees with the recommendation stating that the Bureau of Fiscal
Operations began a project in February 2003 that would allow them “to generate the
primary financial statements within a week after closing.”

The full text of management’s response is presented in Appendix II.

Compliance With JFMIP Requirements
The RRB has not fully assessed its financial management systems for compliance with
JFMIP requirements.
Federal agencies are required to comply with system requirements promulgated by the
JFMIP. Since 1988, the JFMIP has published detailed system requirements for thirteen
areas of financial accountability. A list of these publications is included as Appendix I.
Agencies may comply with JFMIP requirements by building or modifying their financial
systems to meet mandatory functional requirements. In addition, agencies may
purchase software that has been tested by the JFMIP and certified compliant with its
mandatory requirements.
The RRB has implemented a core financial system and integrated purchasing and
budgeting subsystems that are certified JFMIP compliant. However, the agency also
has several major non-integrated systems: the benefit payment, the program accounts
receivable (PAR), cost accounting and personnel/payroll systems. These four systems
have not been formally assessed for compliance with JFMIP requirements.

The benefit payment system is comprised of a series of automated applications that
support the benefit payment process from application through payment certification.
The OIG has previously cited the RRB for control weaknesses that adversely impact the
agency’s financial accountability for benefit payment obligations.
For example, the agency is unable to reconcile the RRA gross benefit payment liability
with amounts recorded in the general ledger.2 In addition, the benefit payment systems
do not support direct accounting for benefit payments by fund. The various components
of a railroad retirement benefit are charged to the related trust funds based on statistical
estimates, rather than the summary allocation of benefits actually paid.

The PAR system is a non-integrated automated subsystem based on the U.S. Standard
General Ledger. Transactions entered into the PAR system are recorded in the core
financial system manually, on a summary basis. We have previously identified control
weaknesses related to system configuration that adversely impact the Bureau of Fiscal
Operations’ ability to ensure that:

      •	 RRA and RUIA program cash receipts as recorded in the PAR system are
         consistent with amounts recorded in the general ledger;
      •   benefits withheld to satisfy program debt are accurate and valid; and
      •   debt recognition is properly timed.3

Agency management cooperated with our review by completing self-assessment
questionnaires for the personnel/payroll system and the managerial cost accounting
systems.4 The completed questionnaires indicate that management believes the
current combination of automated and manual systems generally comply with current
JFMIP requirements. The complexity of the benefit payment system and the extensive,
detailed nature of the JFMIP requirements made it impractical to include even an
informal self-assessment of that system as part of our audit procedures.

The RRB’s management oversight structure does not include a review for compliance
with JFMIP system requirements. The current management control review process was
designed to ensure the effectiveness of internal management controls and does not
address externally mandated requirements for system functionality. However,
management controls and system functionality are closely inter-related.

A formal, fully documented compliance assessment process will identify areas of
deficiency as a basis for future improvement. Absent such a process, management will
not be able to ensure that the agency’s long-term information technology planning
process will provide for a financial management environment that will support the
increasing demand for efficiency and accountability within the Federal government.



2
 OIG Audit Report 00-16, “Review of Internal Control Over Financial Accounting for Debt Recoveries,”
September 29, 2000.
3
    OIG Audit Report 02-10, “Valuation of RRA Accounts Receivable,” August 19, 2002.
4
 The Bureau of Fiscal Operations and the Bureau of Human Resources share responsibility for the
personnel/payroll system. The Bureau of Fiscal Operations maintains the agency’s cost accounting
system.
Recommendation #2

We recommend that the Bureau of Fiscal Operations require periodic evaluations of
JFMIP compliance as part the agency’s existing management control review process.

Management’s Response

Management agrees with the recommendation stating that the agency is “currently
developing a process to coordinate the management control and computer security
assessment and review process. Compliance with JFMIP requirements will be
addressed as part of this effort.”

The full text of management’s response is presented in Appendix II.
                                                                      Appendix I

                  Joint Financial Management Integrity Program 

                              System Requirements 

                                As of January 2003 



Revenue System Requirements, January 2003 


Acquisition Financial System Requirements, June 2002 


Core Financial System Requirements, November 2001 


Benefit System Requirements, September 2001 


Property Management System Requirements, October 2000 


Grant Financial System Requirements, June 2000 


Guaranteed Loan System Requirements, March 2000 


Seized Property and Forfeited Assets System Requirements, December 1999 


Travel System Requirements, July 1999 


Direct Loan System Requirements, June 1999 


Human Resources and Payroll System Requirements, April 1999 


System Requirements for Managerial Cost Accounting, February 1998 


Inventory System Requirements, June 1995 

